     U.S. Department of Labor
     Office of Inspector General
    Chicago Regional Audit Office



INTERIM FINANCIAL AND COMPLIANCE AUDIT


    WELFARE-TO-WORK
COMPETITIVE GRANT PROGRAM

    DEPAUL UNIVERSITY
AGREEMENT NO. Y-6814-8-00-81-60
         INTERIM AUDIT PERIOD
    JULY 1, 1998 THROUGH JUNE 30, 2000




                       Audit Report No. 05-01-003-03-386

                       Date Issued:      07-27-01
                                   TABLE OF CONTENTS


Acronyms/Abbreviations                                                              iii

Executive Summary                                                                    iv

Background                                                                           1

Principal Criteria                                                                   4

Objectives, Scope, and Methodology                                                   4

Opinion                                                                              6

Other Reportable Matters                                                             8

Findings and Recommendations:

        Finding No. 1 – Noncompliance With Federal Cost Principles, WtW
                        Regulations, and Uniform Administrative Requirements         9
               a.       QFSR Expenditures Include Unallowable Costs                  9
               b.       DePaul’s Procurement Policies Are Inadequate                 9

        Finding No. 2 – Noncompliance with Federal WtW Eligibility Target Group
                        Reporting Requirements                                      12
               a.       Misclassification of Hard-to-Employ and Other Eligible
                        Clients                                                     12
               b.       Consolidation of Costs Associated With the Hard-to-Employ
                        and Other Eligible Clients                                  14

        Finding No. 3 – Noncompliance With Federal Financial Reporting
                        Requirements                                                17
               a.       QFSR Is Not Supported by the Accounting System or MIS       17
               b.       Subgrantee Expenditures Are Not Promptly Obtained           18

        Finding No. 4 – Internal Control Weaknesses in Financial Reporting,
                        Subgrantee Monitoring, and the MIS                          20
               a.       Formal Subgrantee Monitoring System Is Not Established      20
               b.       Formal QFSR Reporting System Is Not Established             21
               c.       Access Control to WtW MIS Needs to be Strengthened          21



                                                                                          -i-
                                    TABLE OF CONTENTS
                                      (continued)


Exhibits, Schedules, and Appendices:                                               23

       Exhibit A – Schedule of Claimed Costs and Questioned Costs                  24

              Schedule A-1 – Schedule of Detailed Questioned Costs - Travel        26

              Schedule A-2 – Schedule of Detailed Questioned Costs - Equipment     27

              Schedule A-3 – Schedule of Detailed Questioned Costs - Supplies      28

              Schedule A-4 – Schedule of Detailed Questioned Costs - Contractual   30

              Schedule A-5 – Schedule of Detailed Questioned Costs - Other         34

       Exhibit B – Schedules of Cost Per Client Served by Location                 40

       Exhibit C – Schedule of Ineligible Clients                                  41

       Exhibit D – Schedule of Misclassified Clients                               42


       Appendix A – Interim Quarterly Financial Status Report
                    Reporting Period: June 30, 2000                                46

       Appendix B – Principal Criteria                                             48

       Appendix C – Grantee Response                                               54




                                                                                        -ii-
                  ACRONYMS/ABBREVIATIONS


1999 Amendments                Welfare-to-Work and Child Support
                               Amendments of 1999

AFDC                           Aid to Families with Dependent Children

ASAP                           Alternative Sentencing Approach Program

CAP                            Cost Allocation Plan

CFR                            Code of Federal Regulations

CLB                            Chicago Lighthouse for the Blind

DOL                            U.S. Department of Labor

ETA                            Employment and Training Administration

IDHS                           Illinois Department of Human Services

MIS                            Management Information System

OAI                            Office of Applied Innovations

OIG                            Office of Inspector General

OMB                            Office of Management and Budget

PIC                            Private Industry Council

QFSR                           Quarterly Financial Status Report

TANF                           Temporary Assistance for Needy Families

WtW                            Welfare-to-Work




                                                                         -iii-
                                         EXECUTIVE SUMMARY


The U.S. Department of Labor, Office of Inspector General (OIG) has completed an interim
financial and compliance audit of the $5,000,000 Welfare-to-Work (WtW) Competitive Grant
awarded to DePaul University (DePaul). The grant’s original period of performance was
July 1, 1998, through December 31, 2000, and was extended via a grant modification through June
30, 2001. Our interim audit period was from July 1, 1998, through June 30, 2000. As of June 30,
2000, DePaul had claimed $2,313,766 of expenditures in support of 802 WtW clients served.

Our audit objectives were to:

         C        review and evaluate DePaul’s WtW financial, programmatic, and performance
                  systems and operations;
         C        evaluate DePaul’s compliance with applicable provisions of WtW legislation,
                  regulations, Office of Management and Budget (OMB) Circulars, and specific grant
                  requirements; and
         C        express an opinion on the accuracy of DePaul’s Quarterly Financial Status Report
                  (QFSR) as of June 30, 2000.

To answer the audit objectives, we interviewed DePaul’s key officials involved in the WtW
initiative and reviewed supporting documentation provided by these officials.

Our audit disclosed that DePaul generally has the financial, programmatic, and performance
systems and operations in place to properly administer the WtW Competitive Grant. We also
found that DePaul generally complied with the applicable provisions of the WtW legislation,
regulations, OMB Circulars, and specific grant requirements. However, as a result of the findings
described below and on the next page, we express a qualified opinion on the accuracy of DePaul’s
QFSR as of June 30, 2000. Our audit disclosed the following findings:

         1.       noncompliance with Federal cost principles, WtW regulations, and uniform
                  administrative requirements resulting in questioned costs of $154,127*
                  (see Finding 1);

         2.       noncompliance with Federal WtW eligibility target group reporting requirements
                  resulting in at least 130 misclassified clients and corresponding misclassified costs
                  of at least $355,550 (see Finding 2);

         3.       noncompliance with Federal financial reporting requirements (see Finding 3); and




*   This amount reflects reduced questioned costs based on additional data
    provided by DePaul officials subsequent to the release of the draft report.                      -iv-
         4.       internal control weaknesses in financial reporting, subgrantee monitoring, and the
                  management information system (MIS) (see Finding 4).

We recommend that the Assistant Secretary for Employment and Training:

         !        recover $154,127* resulting from unallowable costs as detailed in Exhibit A; and

         !        require DePaul to:

                  C        establish procurement policies in compliance with Federal requirements;

                  C        correct QFSR reporting by adjusting line items 5 and 19, respectively, by
                           transferring:

                           S        $355,550 from required beneficiaries expenditures to other
                                    eligibles expenditures; and
                           S        130 served clients from the required beneficiaries line item to the
                                    other eligibles line item;

                  C        revise the cost allocation plan (CAP) to distribute WtW Equipment costs to
                           the required beneficiaries vs. other eligibles expenditures;

                  C        perform cost allocations of the grant expenditures in accordance with their
                           revised CAP and adjust QFSR reporting accordingly;

                  C        obtain adequate TANF and AFDC evidence from the Illinois Department of
                           Human Services (IDHS) for each WtW client prior to expending grant funds
                           on the client;

                  C        formalize QFSR reporting policies to ensure documentation is maintained;
                           QFSRs are reviewed and reconciled to the formal books and records prior
                           to submission to ETA; and all subgrantee expenditures are promptly
                           obtained and reported on the QFSR;

                  C        ensure that MIS client eligibility category changes are only executed after
                           an eligibility change is approved by a supervisor and documented in the
                           client’s case file;

                  C        ensure all WtW staff receives periodic MIS output reports to verify client
                           eligibility changes and to ensure that corresponding client costs are adjusted
                           prior to QFSR reporting; and

                  C        formalize subgrantee monitoring procedures.

*   This amount reflects reduced questioned costs based on additional data
    provided by DePaul officials subsequent to the release of the draft report.                           -v-
DePaul officials generally concurred with our findings and identified procedures that they have
either taken or plan to implement to address our recommendations. Subsequent to the release of
the draft report, we were provided additional grant documentation resulting in questioned costs
being reduced to $154,127 as detailed in Exhibit A.

DePaul’s Office of Applied Innovations (OAI), which operated the WtW program, is now an
independent corporation. Consequently, DePaul terminated the WtW program as of
April 15, 2001 and requested that the remaining WtW grant funds be deobligated.




                                                                                             -vi-
                                         BACKGROUND


Welfare-to-Work Legislation

In August 1996, the Personal Responsibility and Work Opportunity Reconciliation Act reformed
the nation's welfare laws. A system of block grants to the states for Temporary Assistance for
Needy Families (TANF) was created, changing the nature and provision of welfare benefits in
America. Moving people from welfare to work is one of the primary goals of Federal welfare
policy.

In August 1997, President Clinton signed the Balanced Budget Act of 1997. This legislation
amended certain TANF provisions of the Social Security Act and authorized the Secretary of
Labor to provide WtW grants to states and local communities for transitional assistance to move
the hard-to-employ TANF welfare recipients and eligible non-custodial parents into unsubsidized
jobs and economic self-sufficiency.

In November 1999, as part of the Consolidated Appropriations Act for Fiscal Year 2000, the
“Welfare-to-Work and Child Support Amendments of 1999” (1999 Amendments) were enacted.
The changes included in this legislation allow WtW grantees to more effectively serve both long-
term welfare recipients and non-custodial parents of low-income children. WtW reporting
requirements were also streamlined. Specific changes included new eligibility requirements,
effective January 1, 2000, which expanded the pool of eligible clients for the both targeted groups
(required beneficiaries and other eligibles) as well as allowing six months of vocational education
and job training prior to “work-first” activities.

Summary of Welfare-to-Work Grants

!      Funding: A total of $3 billion was appropriated for this program: $1.5 billion was
       available in each of Fiscal Years (FY) 1998 and 1999. There are two kinds of grants:
       (1) formula grants to states, and (2) competitive grants to local communities. A small
       amount of the total grant money was set aside for special purposes: One percent for Indian
       tribes; 0.8 percent for evaluation; and $100,000,000 for performance bonuses to successful
       states.

!      Formula Grants to States: After reserving the special purpose funds described above,
       75 percent of the grant funds were allocated to states based on a formula that equally
       considered states' shares of the national number of poor individuals and adult TANF
       recipients. States were required to pass through 85 percent of the money to local Private
       Industry Councils (PICs) -- known as workforce development boards in some areas --
       which oversee and guide job training programs in geographical jurisdictions called service
       delivery areas. A state was allowed to retain 15 percent of the money for WtW projects of


                                                                                            Page 1
      its choice. States must provide one dollar of non-Federal funding match for every two
      dollars of Federal funding provided under the formula.

!     Competitive Grants to Local Communities: The 25 percent of funds not allocated by
      formula were used for competitive grants awarded directly to local governments, PICs, and
      private entities (such as community development corporations, community-based
      organizations, community action agencies, universities, and other private organizations)
      who applied in conjunction with a PIC or local government. The Secretary of Labor gave
      special consideration to cities with large concentrations of poverty and to rural areas.

!     Features Which Apply to Both Formula and Competitive Grants:

      Allowable Uses of Funds: Funds may be used to help move eligible individuals into jobs
      by: job creation through public or private sector wage subsidies; on-the-job training;
      contracts with public or private providers of job readiness, job placement, and
      post-employment services; job vouchers for similar services; community service or work
      experience; or job retention and supportive services (if such services are not otherwise
      available).

Summary of Targeted Participant Eligibility Groups

!     Required Beneficiaries:

      C      Before January 1, 2000 — At least 70 percent of the grant funds must be spent on
             TANF recipients who face two of three specified labor market deficiencies and who
             are long-term welfare recipients [30 or more months receiving TANF or its
             predecessor -- Aid to Families With Dependent Children (AFDC)], or who face
             termination from TANF within 12 months; or who are non-custodial parents who
             face two of three specified labor market deficiencies and the recipient or minor child
             of the non-custodial parent are long-term welfare recipients or face termination
             from TANF within 12 months. Labor market deficiencies include
             (1) lack of high school diploma or general equivalency diploma and low reading or
             math skills, (2) requiring substance abuse treatment for employment, and
             (3) a poor work history.

      C      January 1, 2000 and after — The 1999 Amendments remove the requirement that
             long-term TANF recipients must meet additional barriers to employment in order to
             be eligible for WtW as required beneficiaries. Therefore, TANF recipients are
             eligible if they have received cash assistance for at least 30 months (whether
             consecutive or not), if they are within 12 months of reaching their TANF time limit,
             or if they have exhausted their receipt of TANF due to time limits.




                                                                                           Page 2
       In addition, non-custodial parents are eligible under the required beneficiaries category if
       they meet all three of the following:

               (1) they are unemployed, underemployed, or having difficulty paying child support
               obligations;

               (2) their minor children are eligible for, or receiving TANF benefits (with a priority
               for parents with children who are long-term recipients), received TANF benefits
               during the proceeding year, or are eligible for, or receiving assistance under the
               Food Stamps program, the Supplemental Security Income program, Medicaid, or
               the Children’s Health Insurance Program; and

               (3) they are in compliance with a personal responsibility contract under which they
               commit to cooperating in establishing paternity and paying child support, to
               participating in services to increase their employment and earnings, and to support
               their children.

!      Other Eligibles (30 Percent):

       C       Before January 1, 2000 — Up to 30 percent of the grant funds may be spent on
               individuals who are "recent" recipients of TANF assistance, or non-custodial
               parents, who have characteristics associated with long-term welfare dependence --
               such as school dropout, teen pregnancy, or poor work history.

       C       January 1, 2000 and after — The 1999 amendments add several categories of
               eligibility under the 30 percent provision, including (1) TANF recipients who have
               significant barriers to self-sufficiency under criteria established by the local PIC, (2)
               youth aged 18 to 25 who have “aged out” of foster care, and (3) custodial parents
               with incomes below the poverty line. Non-custodial parents are no longer eligible
               under the 30 percent provisions but may be served under the required beneficiaries’
               provisions described above.

Summary of DePaul University’s WtW Competitive Grant:

The U.S. Department of Labor, Employment and Training Administration (ETA) awarded a
$5,000,000 WtW Competitive Grant to DePaul on July 29, 1998. The grant’s period of
performance was July 1, 1998, through December 31, 2000, and the scope of work required
DePaul to serve 1,958 clients at a projected cost of $2,554 per client served. Of the 1,958 clients
to be served, 65 percent (or 1,273) were to be placed in unsubsidized employment. Modification
No.1, effective July 1, 1998, required DePaul to report the grant’s financial status to ETA via the
WtW Competitive Grant Cumulative QFSR (Form ETA-9068-1). Instructions for completing the
QFSR by line item were included with Modification No. 1. Modification No. 2, effective
September 8, 1999, allowed DePaul to realign the funding within the grant’s budget categories.
Modification No. 3, effective September 28, 2000:

                                                                                                 Page 3
       C       extended the grant’s period of performance through June 30, 2001,

       C       allowed DePaul to realign the funding within the grant’s budget categories to reflect
               most of the grant activity being performed “in-house” instead of previously
               subcontracted, and

       C       reduced the number of clients to be served from 1,958 to 1,200 which increased the
               projected cost per client served from $2,554 to $4,167.



                                     PRINCIPAL CRITERIA


The following criteria were used in this audit:

       !       20 Code of Federal Regulations (CFR) Part 645 - Welfare-to-Work Grants; Interim
               Rule, dated November 18, 1997

       !       1999 Amendments

       !       29 CFR Part 95 - Uniform Administrative Requirements for Federal Grants and
               Agreements Awarded to Institutions of Higher Education, Hospitals, and Other
               Non-Profit Organizations

       !       OMB Circular A-21 - Cost Principles for Educational Institutions.

These criteria will be referred to throughout the report. The excerpts we cited in this report are
included in Appendix B.


                       OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

Our audit objectives were to:
       (1)     review and evaluate DePaul’s WtW financial, programmatic, and performance
               systems and operations,
       (2)     evaluate DePaul’s compliance with applicable provisions of WtW legislation,
               regulations, Office of Management and Budget (OMB) Circulars, and specific grant
               requirements, and
       (3)     express an opinion on the accuracy of DePaul’s QFSR as of June 30, 2000
               (Appendix A).

                                                                                              Page 4
Scope

We performed an interim financial and compliance audit for the period July 1, 1998, through
June 30, 2000.

Methodology

Financial

We audited $2,313,766 of claimed expenditures as reported on the amended QFSR, dated
August 16, 2000. This amended QFSR, for the period ending June 30, 2000, was electronically
submitted by OAI to DOL-ETA via the Internet in late August 2000. The QFSR’s reported
expenditures included salaries, fringe benefits, equipment, administrative costs, supplies, travel, and
indirect costs incurred by DePaul; and contractual costs for the subgrantees.

Using a judgmental sample, we audited the salaries, fringe benefits, and cash stipends incurred by
DePaul as well as all claimed expenditures for one selected subgrantee, Alternative Sentencing
Approach Program (ASAP). Using a statistical sampling plan and methodology, we audited the
remainder of DePaul’s claimed costs. However, the questioned costs within our sample were not
projected to the universe of claimed costs.

We reviewed DePaul’s compliance with Federal requirements pertaining to the WtW Competitive
Grant. We also reviewed audit reports prepared in accordance with OMB Circular A-133. These
reports were the most recent available and covered the period July 1, 1997, through June 30, 1999.
The Reports on Compliance and on Internal Control Over Financial Reporting, and the Reports on
Compliance with Requirements Applicable to Each Major Program and Internal Control Over
Compliance did not identify any material weaknesses. We relied on the other auditors’ assessment
of internal control and only performed a limited evaluation of DePaul’s system of internal
accounting control as it affects the QFSR.

Compliance (Eligibility)

We reviewed 260 randomly selected client files in support of DePaul’s 802 reported WtW clients
served. The following process was used to select our sample. The 802 reported clients were
grouped within three strata according to where each WtW client was serviced: (1) DePaul’s
OAI -- 667; (2) New City YMCA -- 123; and (3) Chicago Lighthouse for the Blind -- 12. We
tested both the client’s WtW eligibility and designated eligibility target group [designated
beneficiaries / hard-to-employ (70 percent) or other eligibles (30 percent)] for all 260 reviewed
client files. The sample was selected to yield a confidence level of 95 percent plus or minus
5 percent precision.

For many of the sampled clients, we also reviewed the IDHS Client Tracking System in order to
determine whether the WtW client had accumulated 30 or more months receipt of TANF and/or
AFDC cash assistance as of the date of WtW eligibility determination.

                                                                                               Page 5
Our audit was performed in accordance with Government Auditing Standards, as issued by the
Comptroller General of the United States. Fieldwork began August 7, 2000, and concluded on
April 25, 2001.



                                             OPINION


We have audited the accompanying QFSR of the DePaul University WtW Competitive Grant for
the interim period July 1, 1998, through June 30, 2000. This QFSR is the responsibility of
DePaul’s management. Our responsibility is to express an opinion on this financial statement based
on our audit.

We have also audited DePaul’s compliance with the requirements governing the WtW Competitive
Grant. Compliance with laws, regulations, contracts, and grants applicable to DePaul is the
responsibility of DePaul’s management. To obtain reasonable assurance about whether the
financial statement is free of material misstatements, we performed tests of DePaul’s compliance
with certain provisions of laws, regulations, grants, and contracts. However, the objective of our
audit of the QFSR was not to provide an opinion on overall compliance with such provisions.
Accordingly, we do not express such an opinion.

In planning and performing our audit of DePaul’s QFSR, we reviewed audit reports prepared in
accordance with OMB Circular A-133 “Audits of States, Local Governments, and Non-Profit
Organizations.” These reports were prepared by a DePaul contractor and were the most recent
available covering the period July 1, 1997, through June 30, 1999. Within these reports, we
reviewed the Reports on Compliance and on Internal Control Over Financial Reporting, and the
Reports on Compliance with Requirements Applicable to Each Major Program and Internal
Control Over Compliance. No material weaknesses were identified. Although we relied on the
other auditors’ assessment of internal control, we performed a limited evaluation of DePaul’s
system of internal accounting control as it affects the QFSR. The objective of our internal control
testing was to assess control risk in planning the audit of the QFSR and not to provide an opinion
on internal controls. Accordingly, we do not express an opinion.

However, we noted several matters involving the internal control structure and its operation over
QFSR preparation that we consider to be reportable conditions, but not material weaknesses. The
following internal control weaknesses are explained in detail within Finding No. 4:

       C       DePaul lacks a formal subgrantee monitoring system;
       C       DePaul lacks a formal QFSR reporting system; and
       C       DePaul has weak access control to the WtW MIS.

We conducted our audit in accordance with generally accepted auditing standards and Government
Auditing Standards, as issued by the Comptroller General of the United States. Those standards

                                                                                             Page 6
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and significant estimates made by management,
as well as evaluating the overall financial statement presentation. We believe that our audit and the
report of the other auditors provide a reasonable basis for our opinion.

The result of our audit disclosed instances in which DePaul did not comply with the requirements
that:

       C       QFSRs are supported by the accounting system including source documentation;
       C       QFSRs are supported by the MIS;
       C       QFSR expenditures only include reasonable costs;
       C       QFSR expenditures are properly allocated between the eligibility target groups;
       C       subgrantees promptly report expenditures;
       C       subgrantees maintain detailed accounting records;
       C       only clients eligible for the WtW program are served; and
       C       clients are designated in the “30 percent other eligibles” targeted eligibility group
               when they meet only the criteria for this group.

In our opinion, except for the matters identified in this report and in the accompanying
Exhibits A through D, the QFSR presents fairly, in all material respects, the financial and
programmatic position of the DePaul WtW Competitive Grant as of June 30, 2000, in conformity
with generally accepted accounting principles.

This report is intended for the information of the U.S. Department of Labor, Employment and
Training Administration and DePaul University. However, upon issuance, this report becomes a
matter of public record and its distribution is unlimited.



John J. Getek
Assistant Inspector General
  for Audit




                                                                                               Page 7
                            OTHER REPORTABLE MATTERS


Using a statistical sampling plan and methodology, we reviewed each client’s WtW eligibility for
260 of DePaul’s 802 claimed WtW clients. During eligibility testing, we found that the New City
YMCA (a DePaul subgrantee) served six clients who were determined to be ineligible for WtW
services (see Exhibit C). We determined that the six clients’ eligibility documents were not in
compliance with 20 CFR Parts 645.212 and 645.213 or the 1999 Amendments. The New City
YMCA did not submit any expenditures to DePaul in support of their 123 WtW clients served
during our audit period.

The Assistant Secretary for Employment and Training must ensure that DePaul reduces any future
voucher/invoice received from the New City YMCA by the respective expenditures associated
with the six ineligible clients and does not include these respective costs within future QFSR
expenditures.




                                                                                          Page 8
                                FINDINGS AND RECOMMENDATIONS


1.      Noncompliance with Federal Cost Principles, WtW Regulations, and Uniform
        Administrative Requirements

DePaul did not always comply with Federal cost principles, WtW regulations, and uniform
administrative requirements. We disclosed in our draft report that DePaul included $173,465* of
unallowable costs within the QFSR claimed expenditures and maintained inadequate procurement
policies.

a.      QFSR expenditures include unallowable costs

        DePaul claimed unallowable costs including:

        C        WtW client cash stipends,
        C        expenditures in support of three ineligible clients,
        C        a cash advance to one subgrantee which subsequently ceased operations, and
        C        expenditures that were either unsupported or unreasonable.

        These expenditures did not comply with Federal requirements as defined in OMB Circular
        A-21, 20 CFR Part 645, 29 CFR Part 95, and/or ETA’s WtW Questions and Answers for
        Allowable Activities. As a result, we questioned $173,465* as detailed in Exhibit A, and
        supporting schedules.

b.      DePaul’s procurement policies are inadequate

        We determined that DePaul has limited procurement policies and procedures and has
        decentralized their procurement system. We found that existing procurement policies and
        procedures do not comply with uniform administrative requirements for Federal grants (29
        CFR Parts 95.42 through 95.46) because they do not address:

        S        employee code of conduct,
        S        free and open competition,
        S        cost and price analysis,
        S        maintaining procurement records, and
        S        sole source justification.




* This amount has been reduced to reflect additional data provided by
  DePaul officials subsequent to the release of the draft report.                             Page 9
Recommendations

We recommend that the Assistant Secretary for Employment and Training:

       a.      recover $154,127 ($173,465 less $19,338) resulting from unallowable costs as
               detailed in Exhibit A; and

       b.      require DePaul to establish procurement policies that comply with uniform
               administrative requirements for Federal grants.

Grantee Response

DePaul officials requested that the following questioned costs be allowed:

C      Cash stipends paid to clients ($29,965) were included in their grant proposal which was
       reviewed, negotiated, and approved by ETA.

C      Two of three ineligible clients were eligible ($6,326). DePaul had exceeded planned
       enrollments and documentation can be provided for eligibility.

C      DePaul officials put forth a good faith reasonable effort to obtain supporting
       documentation for payments to a subgrantee ($84,053) which suddenly ceased operations.
       DePaul took steps that a reasonably prudent business person would take to ensure that the
       subgrantee was a responsible partner.

C      DePaul believes that they have adequate support for the majority of the unsupported or
       unreasonable expenditures ($49,958).

DePaul’s procurement policies will be clarified, where appropriate, to more closely mirror the
Federal regulation’s wording.

Auditor’s Conclusion

We reviewed DePaul’s response which resulted in the following conclusions:

       a.      Costs subject to recovery:

               C      Per ETA’s WtW Questions and Answers for Allowable Activities, cash
                      incentives paid to clients is not an allowable activity. Therefore, the cash
                      stipends paid to clients can only be allowed by the Grant Officer.

               C      The additional source documentation to support two clients’ eligibility was
                      not provided by DePaul officials.



                                                                                            Page 10
     C      Adequate source documentation in accordance with Federal regulations was
            not provided to support subgrantee payments.

     C      DePaul officials did however provide additional data to support $19,338 in
            expenditures previously found to be unsupported or unreasonable.

     As a result, the questioned cost has been reduced to $154,127.

b.   Procurement policies - We consider the initial corrective action taken by DePaul
     sufficient to resolve the second recommendation. However, the finding cannot be
     closed until the Grant Officer has determined that the corrective action has been
     properly implemented.




                                                                                Page 11
2.     Noncompliance with Federal WtW Eligibility Target Group Reporting Requirements

DePaul did not always comply with Federal WtW eligibility requirements when reporting client
expenditures and programmatic activity on the QFSR for the period ending June 30, 2000. DePaul
reported incorrect expenditures and program data on the QFSR. The incorrect reporting resulted
from (a) the misclassification of hard-to-employ and other eligible clients; and (b) the
consolidation of costs associated with the hard-to-employ and other eligible clients during the first
year of grant activity.

a.     Misclassification of hard-to-employ and other eligible clients

       Under terms of the WtW Competitive Grant, DePaul was to expend the majority of their
       funds and effort in meeting the needs of hard-to-employ clients. During our audit period,
       DePaul reported serving a total of 802 clients. The client total consisted of 551 hard-to-
       employ and 251 other eligibles. Our review disclosed that DePaul had overstated the
       hard-to-employ by at least 130 clients. As a result, DePaul also overstated the reported
       costs for the hard-to-employ by $355,550 on the QFSR.

       Using a statistical sampling plan, we reviewed 260 of the 802 clients reported by DePaul.
       The sample consisted of the following:

                                  Hard-to-Employ        Other Eligibles
                   Category           (70%)                 (30%)              Total
                  Per QFSR                 551                  251             802
                   Sampled                 180                  80              260

       The results of our sample are presented in detail in Exhibit C and Exhibit D, and are
       summarized as follows:

                              Hard-to-Employ        Other Eligibles
              Category            (70%)                 (30%)            Total         Note
           Sampled                   180                   80             260
           Ineligibles                5                    7              12            1
           Misclassified             -54                  +54              0            2




                                                                                              Page 12
Note 1:                  The clients were determined ineligible because:

                  C      seven clients, designated as receiving TANF, were not receiving
                         TANF;

                  C      three clients did not have sufficient documentation to qualify as
                         custodial parents with incomes below the poverty line; and

                  C      two clients did not have any designated characteristics associated
                         with long-term welfare dependence as required by 20 CFR
                         Part 645 or the 1999 Amendments.

Note 2:                  Within our eligibility sample, we found that 54 of 180 designated
                         hard-to-employ (70 percent) WtW clients met only the other
                         eligibles (30 percent) criteria because they were either:

                  C      clients not meeting two of three additional barriers to employment as
                         specified in 20 CFR Part 645.212 (a)(2); and/or

                  C      clients designated as having received 30 or more months of TANF
                         or AFDC cash assistance as of the date of WtW eligibility
                         determination as specified in 20 CFR Part 645.212(a)(3), but in fact
                         had not received the required cash assistance.

The sampling plan was developed to provide a 90 percent confidence level in projecting the
results of our sample to the total of 802 served clients. The projected results of our sample
are presented below:

          Category                Hard-to-Employ        Other Eligibles       Total
                                      (70%)                 (30%)
 Per QFSR                                       551                   251         802
 Ineligibles in Sample                             5                      7        -12
                      Low                       -130                +130              0
  Misclassified
       in             Mid-Point                 -161                +161              0
   Universe           High                      -192                +192              0

We are 90 percent confident that our client category error range as projected to the
universe is at between 130 and 192 clients. We are 90 percent confident that 130 clients
designated as hard-to-employ (70%) clients only qualify as other eligibles (30%).



                                                                                          Page 13
     Therefore, the reported results on Lines 19(1) and 19(2) of the QFSR should have been as
     follows:

                                    Hard-to-Employ       Other Eligibles
                 Category               (70%)                (30%)              Total
         Per QFSR                         551                   251               802
         Projected Classification         416                   374               790

     Required Beneficiaries expenditures (QFSR, Line 5a) for the hard-to-employ should be
     reduced by the costs associated with the 130 misclassified clients and added to Other
     Eligibles expenditures (QFSR, Line 5b) as follows:

                  Misclassified        Cost per Client Served         Misclassified
                    Clients               (see Exhibit B)                Costs
                       130                      $2,735                 $355,550

b.   Consolidation of costs associated with the hard-to-employ and other eligible clients

     The misclassification of costs was further compounded by actions taken during the grant’s
     first year of performance by DePaul’s OAI. Initially, two accounts were established within
     DePaul’s accounting system to track WtW costs in the grant’s first year of performance:

     C        5-20736 – WtW Administration
     C        5-20739 – WtW 70% Direct Participant

     A former OAI accountant expected that the WtW program would incur expenses for hard-
     to-employ clients exclusively during the first year of operation. However, other eligible
     clients were served during the grant’s first year due to OAI’s inability to:

     C        receive accurate and consistent WtW client TANF and/or AFDC data from the
              IDHS local offices, and/or
     C        properly document client case files to ensure compliance with 20 CFR Part 645.212
              (70 percent eligibility provisions).

     All accounts, including the two WtW accounts, within DePaul’s financial accounting
     system were closed out without the separation of 70/30 costs within the general ledger
     after the grant’s first year of performance. Expenditures totaling almost $1 million were
     accumulated in these two WtW accounts. The situation was further compounded due to at
     least three OAI accountant personnel changes.




                                                                                            Page 14
       At the beginning of the grant’s second year of performance, two additional WtW accounts
       were established within DePaul’s financial accounting system:

       C       5-20408 – WtW 30% Direct Participant
       C       5-20406 – WtW Equipment

       In addition, OAI refined a Cost Allocation Plan (CAP) during the second year operations
       to provide a mechanism to charge direct costs appropriately and to allocate pooled costs
       consistently across the four accounts established for WtW. The CAP also provided a
       mechanism to allocate expenditures accumulated within the WtW Administration account
       for proper reporting of required beneficiaries vs. other eligibles total client costs within
       the QFSR, Lines 5a and 5b. These actions allowed DePaul to correctly allocate the grant
       expenditures incurred during the second grant year with the exception of the WtW
       Equipment costs. The CAP defined the types of items to be included in the WtW
       Equipment account, but was silent about how to allocate the costs to the required
       beneficiaries vs. other eligibles expenditures. Furthermore, DePaul did not correct the
       expenditures reported during the first year of grant operation.

Recommendations

We recommend that the Assistant Secretary for Employment and Training require DePaul to:

       a.      correct QFSR reporting by adjusting line items 5 and 19, respectively, by
               transferring:

               S      $355,550 from required beneficiaries expenditures to other eligibles
                      expenditures; and
               S      130 served clients from the required beneficiaries line item to the other
                      eligibles line item;

       b.      revise the CAP to distribute the WtW Equipment costs to the required
               beneficiaries vs. other eligibles expenditures;

       c.      perform cost allocations of the grant expenditures in accordance with their revised
               CAP and adjust QFSR reporting accordingly; and

       d.      obtain adequate TANF and AFDC evidence from the IDHS for each WtW client
               prior to expending grant funds on the client.

Grantee Response

DePaul officials generally concurred with this finding. The IDHS, which administers the TANF
program in Illinois, did not provide reliable or accurate documentation on client eligibility and
70/30 classifications. DePaul met several times with IDHS to rectify the situation. DOL officials


                                                                                            Page 15
were also unable to obtain accurate information from IDHS. Consequently, DePaul officials were
forced to perform much more work than was originally envisioned in their grant proposal and tried
to collect the information on their own.

DePaul officials concurred with five of 12 ineligible clients and 22 of 54 misclassified clients. The
ineligible clients were counted as enrollments only and will be de-enrolled and deducted from the
total enrollment.

Auditor’s Conclusion

Based upon our review of DePaul’s evidence in support of 12 ineligible clients, we consider 3 of
these clients to be eligible for the WtW program. However, two clients were categorized as hard-
to-employ (70 percent) but were only eligible under the 30 percent criteria. Consequently, these
two clients were added to Exhibit D. The other client was categorized as an other eligible (30
percent) receiving TANF but met the criteria of a custodial parent with income below the poverty
line. Our final determination is nine ineligible clients.

Based upon our review of DePaul’s evidence in support of 54 misclassified clients, we consider 2
of these clients to be properly classified as hard-to-employ. Because 2 clients are now determined
to be properly classified and 2 previously ineligible clients are now determined to be misclassified,
our final determination is 54 misclassified clients.

The grantee is in the process of reallocating program costs in accordance with their revised CAP.
DePaul also terminated the WtW program as of April 15, 2001.

Although DePaul’s corrective action is a partial solution, we disagree on the number of ineligible
and misclassified clients. Therefore, our conclusion for each recommendation is as follows:

       a.      The misclassified clients and misclassified costs remain unchanged.

       b.      The CAP should be revised to distribute the WtW Equipment costs to the required
               beneficiaries vs. other eligibles expenditures.

       c.      Cost allocations of the grant expenditures should be performed in accordance with
               the revised CAP. QFSR reporting should then be adjusted accordingly.

       d.      Corrective action regarding IDHS evidence is not required due to the termination of
               the grant.




                                                                                             Page 16
3.    Noncompliance With Federal Financial Reporting Requirements

DePaul did not always comply with QFSR requirements. We found that DePaul:

      a.     submitted a QFSR that could not be reconciled to DePaul’s accounting system or
             MIS; and

      b.     did not promptly obtain and report subgrantee expenditures.

a.    QFSR not supported by the accounting system and MIS

      DePaul submitted a QFSR, dated August 16, 2000, with reported expenditures of
      $2,452,578 in support of 809 served WtW clients. We were unable to reconcile Federal
      expenditures (Line Item 2) or total participants served [Line Items 19(1) and 19(2)] to
      DePaul’s accounting system or MIS, respectively.

      29 CFR Part 95.21 requires that DePaul maintain documentation that will permit the
      accurate preparation of required reports.

      DePaul’s accounting system documented $2,313,766 of cumulative expenditures through
      June 30, 2000, within four accounts established for the WtW project:

             C       5-20736 – WtW Administration                          $     138,813
             C       5-20739 – WtW 70% Direct Participant                      1,834,011
             C       5-20408 – WtW 30% Direct Participant                        263,772
             C       5-20406 – WtW Equipment                                      77,170

                                                                           $ 2,313,766

      DePaul’s WtW MIS (consisting of a database and facsimile listings from two subgrantees)
      documented only 802 clients with WtW eligibility determination dates before
      July 1, 2000.

      We requested DePaul’s assistance in reconciling the QFSR line items. Expenditures were
      overstated because of an oversight of double counting the cumulative expenditures within
      Account 5-20736. Served clients were overstated because DePaul counted all clients on
      the subgrantees’ WtW client listings of which seven clients had WtW eligibility
      determination dates after June 30, 2000. Consequently, DePaul submitted a revised QFSR
      to ETA, dated August 16, 2000. The results presented in this report are based on the
      revised QFSR.

      Inaccurate financial and programmatic reporting affects ETA’s ability to properly exercise
      its stewardship responsibilities over the WtW program.



                                                                                           Page 17
b.     Subgrantee expenditures are not promptly obtained

       We determined that DePaul did not promptly obtain and report subgrantee expenditures for
       the Chicago Lighthouse for the Blind (CLB) and the New City YMCA.

       The CLB served 12 clients from January 1, 1999, through June 30, 2000, but only
       submitted one invoice to DePaul for $40,347 covering the period, July 1 through
       September 30, 1999. As of the invoice ending date, CLB had served five WtW clients and
       placed only one of these five into unsubsidized employment. No other CLB invoices were
       reported in DePaul’s WtW financial system accounts through June 30, 2000.

       The New City YMCA served 123 clients from September 1, 1999, through June 30, 2000,
       but did not submit any invoices to DePaul during this period. We were provided a report
       from the YMCA’s financial management system which documents WtW expenses of
       $332,768 as of June 30, 2000.

       Article IX of the agreement between DePaul and the New City YMCA requires monthly
       invoices be submitted to DePaul. Article VIII of the agreement between DePaul and the
       CLB requires quarterly invoices be submitted to DePaul and the Scope of Work states that
       CLB will complete and submit monthly expense vouchers.

       The monthly invoices from the New City YMCA and CLB were not obtained by DePaul
       due to management oversight and a lack of formal monitoring (see Finding 4a).
       Consequently, the QFSR’s reported expenditures were understated because actual
       subgrantee accumulated expenditures were not included through June 30, 2000.


Recommendations

We recommend that the Assistant Secretary for Employment and Training require DePaul to:

       a.     formalize QFSR reporting policies to ensure QFSRs are reviewed and reconciled to
              the formal books and records prior to submission to ETA; and

       b.     ensure that subgrantee expenditures are promptly obtained and reported on the
              QFSR.




                                                                                        Page 18
Grantee Response

DePaul officials concurred with this finding. DePaul officials indicate that their QFSR, through
March 31, 2001, is directly linked to the financial and programmatic information generated by their
accounting system and MIS tracking system. A formal system is in place for the accumulation and
assembly of the QFSR’s fiscal and programmatic data. DePaul also terminated the WtW program
as of April 15, 2001.


Auditor’s Conclusion

Corrective action is not needed due to the termination of the grant.




                                                                                           Page 19
4.     Internal Control Weaknesses in Financial Reporting, Subgrantee Monitoring, and
       the MIS

We determined that certain internal controls within DePaul’s WtW reporting system are
inadequate. We determined that DePaul needs to strengthen their:

       a.     subgrantee monitoring system;
       b.     QFSR reporting system; and
       c.     access control to the WtW MIS.

a.     Formal subgrantee monitoring system is not established

       We determined that DePaul’s OAI had not established a formal monitoring system.
       Instead, we were informed by an OAI official that they had conducted several informal
       monitoring visits to the subgrantees. However, the purpose of the visits, items reviewed,
       and subsequent determinations were not documented by OAI.

       29 CFR Part 95.51 requires grant recipients to monitor each subaward. Further, the
       agreements between DePaul and its WtW subgrantees require DePaul to conduct site visits
       at the subgrantees’ locations to observe the progress taking place.

       Our review of two subgrantees disclosed problems we believe could have been detected by
       appropriate monitoring visits. For example: We found that the New City YMCA served
       several ineligible clients and misclassified clients in incorrect eligibility target groups.

       Another example: We found that the CLB’s cost per client served was excessive as
       compared to the cost per client served according to the DePaul-CLB agreement. This
       $228,743 agreement required CLB to serve at least 50 clients at a maximum calculated
       cost per client served of $4,575 ($228,743 ÷ 50). CLB is serving a difficult population of
       clients with disabilities and certain start-up costs are to be expected in this program.
       However, as of CLB’s only reported billing to DePaul ($40,347 from July 1, 1999 through
       September 30, 1999), the cost per client served was $8,069 as CLB served only five clients
       and placed only one client into unsubsidized employment.

       We believe that had adequate formal monitoring policies been developed, the above items
       would have been discovered and resolved by DePaul.




                                                                                           Page 20
b.   Formal QFSR reporting system is not established

     We determined that DePaul’s OAI had not established a formal system for the preparation
     and subsequent documentation of the QFSR submitted under the grant. Instead, we were
     informed by an OAI official that they relied on using the instructions issued by ETA within
     Modification No. 1 to the Grant Agreement. One accountant in DePaul’s OAI was
     responsible for obtaining and submitting the QFSR data to ETA.

     We requested DePaul’s previously submitted QFSRs. We were informed that these QFSRs
     were not maintained. We then requested source documentation to support individual
     QFSR line items for the revised QFSR for the period ending June 30, 2000. We were
     informed that the WtW Accountant has view and print access of the WtW account
     summary reports within DePaul’s accounting system. We were also informed that
     programmatic information is relayed from the WtW Operations Director to the WtW
     Accountant. The Operations Director obtains data from two subgrantees as well as DePaul
     OAI’s MIS. After programmatic data are relayed from the WtW Operations Director, the
     WtW Accountant submits the QFSR data via the Internet to ETA. However, source
     documentation in support of the individual QFSR line items is not maintained.

     A sound system of internal control relies upon formal policies and procedures in place to
     govern financial reporting. Furthermore, a sound system of internal control relies upon
     supervisory review and approval.

c.   Access control to the WtW MIS needs to be strengthened

     We determined that all OAI WtW staff had access to OAI’s WtW MIS which contains
     WtW programmatic data for each client. Consequently, the staff, at any time, could
     arbitrarily change a client’s programmatic data, including their WtW eligibility target
     group. Any executed changes to the client’s programmatic data were permanent within the
     MIS system. The MIS system did not have any mechanism to track the changes and inform
     other OAI personnel of the changed data.

     Personnel and non-personnel cost allocations were made to the respective client cost
     categories (hard-to-employ vs. other eligibles) based upon clients’ designated eligibility
     status within the MIS at the time the allocation was executed.

     We informed DePaul OAI management of this weakness. Management implemented
     formal procedures to ensure that changes to a WtW client’s eligibility status were properly
     documented. Any change to a client’s eligibility status was to be initiated by a case
     manager, approved by supervisory manager, and documented in the client’s case file and in
     the MIS by appropriate personnel. However, the procedures did not include notifying the
     OAI Accountant of client eligibility changes which is critical for ensuring that WtW
     personnel and non-personnel cost allocations are correctly executed.



                                                                                          Page 21
       A sound system of internal control includes documenting critical programmatic changes,
       ensuring adequate segregation of duties, and establishing supervisory review and approval
       mechanisms.

Recommendations

We recommend that the Assistant Secretary for Employment and Training require DePaul to:

       a.      formalize subgrantee monitoring procedures;

       b.      formalize QFSR reporting policies to ensure adequate documentation is maintained
               and QFSRs are reviewed prior to submission to ETA;

       c.      ensure that MIS client eligibility category changes are only executed after an
               eligibility change is approved by a supervisor and documented in the client’s case
               file; and

       d.      ensure all OAI WtW staff receive periodic MIS output reports to verify client
               eligibility changes and to ensure that corresponding costs are properly adjusted
               prior to QFSR reporting.

Grantee Response

DePaul officials concurred with the finding. The OIG recommendations have been implemented.
DePaul also terminated the WtW program as of April 15, 2001.

Auditor’s Conclusion

Corrective action is not needed due to the termination of the grant.




                                                                                           Page 22
EXHIBITS, SCHEDULES, AND APPENDICES




                                      Page 23
                                                                                      Exhibit A

                                DEPAUL UNIVERSITY
                      WELFARE-TO-WORK COMPETITIVE GRANT NO.
                                  Y-6814-8-00-81-60

                        Schedule of Claimed Costs and Questioned Costs
                                     For the Interim Period
                              July 1, 1998 through June 30, 2000

                                            COSTS                            REFERENCE
 COST CATEGORY
                              CLAIMED                 QUESTIONED
 (A) Personnel            $          1,236,204    $                   0
 (B) Fringe Benefits                   346,802                  25,000    Schedule A-4, Note 4
 (C) Travel                             35,947                   2,116        Schedule A-1
 (D) Equip./Tech.                       56,915                    *346        Schedule A-2
 (E) Supplies                           31,082                    *375        Schedule A-3
 (F) Contractual                       303,643                  79,153        Schedule A-4
 (G) Other                             285,805                 *56,986        Schedule A-5
 Sub Total                           2,296,398                *163,976
 Ineligible Clients                                      Ö       9,489           Note 1
 Total Direct Cost        $          2,296,398    $            173,465
 Indirect Cost                          17,368                        0
 Total Adjustments
 ($19,425 less $87)       $                   0   $             19,338
 Total Cost               $          2,313,766    $            154,127

Legend

* Each amount has been reduced by a cumulative total of $19,425 as a result of additional data
 provided by DePaul officials subsequent to the release of the draft report.

Ö This amount has been increased by $87 as a result of an overall reduction of non-personnel
 questioned costs (See Note 1 and Exhibit B).


                                                                                          Page 24
                                                                       Exhibit A (continued)


Note 1:   DePaul’s QFSR included $9,576 of questioned costs in support of three clients
          found to be ineligible for WtW services (see table below). These three clients were
          served by DePaul’s OAI. The clients were determined ineligible because they either
          had not received TANF cash benefits or did not have any designated characteristics
          associated with long-term welfare dependence as required by
          20 CFR Part 645. We calculated OAI’s cost per client served as $3,192 (see
          Exhibits B and C).

                  Ineligibles    Cost Per Client     Questioned Cost
                       3         $          3,192    $             9,576

          Grantee Response

          DePaul officials agree that one client was ineligible. However, the remaining two
          clients are eligible. DePaul had exceeded planned enrollments and documentation
          can be provided for eligibility.

          Auditor’s Conclusion

          Additional source documentation to support the two clients’ eligibility was not
          provided by DePaul officials. Consequently, questioned costs remain unchanged
          with the following exception.

          Because direct client costs could not be readily identified in DePaul’s accounting
          system, we calculated the average cost per client served using Exhibits B and C.
          As a result of DePaul officials providing additional data subsequent to the release of
          the draft report, previously questioned non-personnel costs were allowed. This
          results in an overall higher calculation of cost per client served. Questioned costs
          per ineligible client increased from $3,163 to $3,192 resulting in a net increase of
          $87 for the three clients determined to be ineligible for the program.




                                                                                       Page 25
                                                                                   Schedule A-1

                              DEPAUL UNIVERSITY
                    WELFARE-TO-WORK COMPETITIVE GRANT NO.
                                Y-6814-8-00-81-60

                        Schedule of Detailed Questioned Costs - Travel
                                    For the Interim Period
                             July 1, 1998 through June 30, 2000

              DePaul Accounting System                 OIG
                          Fiscal         Account      Sample    Amount
          Object Code     Year           Number       Number   Questioned        Note

                                                        44     $        968        1
             5200         1999           5-20739
                                                        45            1,148        1
                                 Total                         $      2,116


Note 1:       OAI was unable to provide source documentation to support these amounts.
              Therefore, we have questioned these amounts in total because 29 CFR
              Part 95.21 (b)(2) and (7) requires that the accounting records be supported by
              source documentation.

              Grantee Response

              The grantee concurs with the finding.

              Auditor’s Conclusion

              The questioned cost remains unchanged.




                                                                                         Page 26
                                                                                         Schedule A-2

                                DEPAUL UNIVERSITY
                      WELFARE-TO-WORK COMPETITIVE GRANT NO.
                                  Y-6814-8-00-81-60

                        Schedule of Detailed Questioned Costs - Equipment
                                      For the Interim Period
                               July 1, 1998 through June 30, 2000

             DePaul Accounting System
                                                                OIG        Amount
                                            Account            Sample
          Object        Fiscal Year         Number                        Questioned       Note
                                                               Number
          Code
          2502              2000          5-20406                  16         $              1
                                                                                  *346


Note 1:          OAI was unable to provide source documentation to support this ProCard
                 (University charge card) purchase. Therefore, we have questioned the amount in
                 total because 29 CFR Part 95.21 (b)(2) and (7) requires that the accounting records
                 be supported by source documentation.

                 Grantee Response

                 DePaul officials provided source documentation to substantiate the expenditure.

                 Auditor’s Conclusion

                 The questioned cost is eliminated.




*   This amount has been reduced to reflect additional data provided by
    DePaul officials subsequent to the release of the draft report.                           Page 27
                                                                                        Schedule A-3

                                 DEPAUL UNIVERSITY
                       WELFARE-TO-WORK COMPETITIVE GRANT NO.
                                   Y-6814-8-00-81-60

                          Schedule of Detailed Questioned Costs - Supplies
                                       For the Interim Period
                                July 1, 1998 through June 30, 2000

                  DePaul Accounting System                    OIG
              Object            Fiscal        Account        Sample        Amount
                                                                                       Note
              Code              Year          Number         Number       Questioned

                                                                 48            $*131    1
                                               5-20739
                4900             2000                            49              144    1
                                               5-20408           62             *100    2
                                      Total                                    $*375

Note 1:          For these items, the original expenses were charged to another account. A portion
                 of the expenses was later reallocated through journal entries to the WtW account.
                 These entries were selected as sample items. OAI was unable to provide source
                 documentation to support these amounts. Therefore, we have questioned these
                 amounts in total because 29 CFR Part 95.21 (b)(2) and (7) requires that the
                 accounting records be supported by source documentation.

                 Grantee Response

                 DePaul officials provided source documentation to substantiate the expenditures.

                 Auditor’s Conclusion

                 The questioned cost is eliminated for Sample No. 48. For Sample No. 49, DePaul
                 officials provided a receipt from a Burbank, IL appliance store to support an
                 August 1999 refrigerator and microwave purchase for M.O.S.T. class. Although
                 the receipt indicates that the purchase was made using a DePaul OAI employee’s
                 ProCard, we cannot determine the benefit to the WtW program resulting from this
                 purchase. Furthermore, the purchasing information (name, address, phone) on the
                 receipt copy was either blank or illegible. The questioned cost of $144 for Sample
                 Item No. 49 remains unchanged.


*   This amount has been reduced to reflect additional data provided by
    DePaul officials subsequent to the release of the draft report.                           Page 28
                                                                 Schedule A-3 (continued)


Note 2:   OAI was unable to provide source documentation to support this amount.
          Therefore, we have questioned this amount in total because 29 CFR
          Part 95.21 (b)(2) and (7) requires that the accounting records be supported by
          source documentation.

          Grantee Response

          DePaul officials provided source documentation to substantiate the expenditure.

          Auditor’s Conclusion

          The questioned cost is eliminated.




                                                                                     Page 29
                                                                                   Schedule A-4

                             DEPAUL UNIVERSITY
                   WELFARE-TO-WORK COMPETITIVE GRANT NO.
                               Y-6814-8-00-81-60

                     Schedule of Detailed Questioned Costs - Contractual
                                   For the Interim Period
                             July 1, 1998 through June 30, 2000

               DePaul Accounting System               OIG
                                                     Sample         Amount
                             Fiscal       Account                  Questioned     Note
          Object Code        Year         Number     Number

                                                         15        $       100      1
           Professional
             Services         1999        5-20739        24              5,000      2
              3400                                       26              5,000      3
                              2000        5-20739        43             10,000      3
           Subcontracts                               Judgmental
              3410            1999        5-20739                       59,053      4
          Fringe Benefits
                                                      Judgmental
               2100           1999        5-20739                       25,000      4
                                  Total                            $   104,153


Note 1:        OAI reimbursed a student consultant $100 for travel expenses. However, OAI was
               unable to provide source documentation to support the amount reimbursed.
               Therefore, we have questioned the $100 in total because 29 CFR Part 95.21 (b)(2)
               and (7) requires that accounting records be supported by source documentation.

               Grantee Response

               DePaul officials provided source documentation to substantiate the expenditures.




                                                                                         Page 30
                                                                 Schedule A-4 (continued)

          Auditor’s Conclusion

          The source documentation consisted of a voucher check requisition, e-mail, and
          invoice for the payment of travel expenses incurred for a DePaul student’s
          evaluation project of welfare clients. The e-mail originating from OAI indicates
          that the student’s travel expenses included transportation from home (Bridgeview,
          IL) to class and return as well as telephone costs associated with client outreach.
          However, the provided documentation did not include any itemization of individual
          trips or telephone expenses. Consequently, we are unable to determine the
          reasonableness of the $100 travel expense. The questioned cost remains
          unchanged.

Note 2:   OAI was unable to provide source documentation to support this amount.
          Therefore, we have questioned this amount in total because 29 CFR Part
          95.21 (b)(2) and (7) requires that the accounting records be supported by source
          documentation.

          Grantee Response

          DePaul officials provided source documentation to substantiate this expenditure and
          the expenditures associated with Note 3.

          Auditor’s Conclusion

          We were unable to verify that the provided documentation was the source
          documentation for this sampled item. The questioned cost remains unchanged (see
          Note 3 below).

Note 3:   The two items questioned represent financial contributions made to the Amate
          House by OAI in exchange for volunteers assisting OAI. The mission of the Amate
          House is to enhance the faith development and leadership of young adult Catholics.
          This is accomplished by providing volunteers experiences of direct service to those
          in need while participating in community and sharing in opportunities for
          educational and spiritual growth. The financial agreements between Amate House
          and DePaul OAI merely state that OAI will pay $10,000 for the services of a
          volunteer for approximately ten months.

          The Attachment to OMB Circular A-21 at C 3 states in part that . . .A cost may be
          considered reasonable if the nature of the goods or services acquired or applied,
          and the amount involved therefor, reflect the action that a prudent person would
          have taken under the circumstances prevailing at the time the decision to incur the
          cost was made. Major considerations involved in the determination of the


                                                                                     Page 31
                                                                      Schedule A-4 (continued)

          reasonableness of a cost are: (a) whether or not the cost is a type generally
          recognized as necessary for the operation of the institution or the performance of
          the sponsored agreement;...

          OAI did not provide any documentation as to what types of services were provided
          by the volunteers nor the actual hours worked on grant specific activities.
          Therefore, we have questioned the amounts claimed in total.

          Grantee Response

          DePaul officials provided source documentation to substantiate these expenditures
          and the expenditure associated with Note 2. The officials believe they have
          provided adequate support.

          Auditor’s Conclusion

          OAI did not provide any documentation as to what types of specific services were
          provided by the volunteers nor the actual hours worked on grant specific activities.
          Therefore, the questioned cost remains unchanged.

Note 4:   We tested three transactions for Alternative Sentencing Approach Program (ASAP)
          as follows:

                       Description            Amount         Reference
                  Subcontract             $        47,499         a
                  Subcontract                      11,554         b
                  Sub Total                        59,053
                  Fringe Benefits                  25,000         c
                  Total                   $        84,053

          a.     The amount claimed was based on an invoice submitted by ASAP for
                 salaries, fringe benefits and various operating expenses including trainee
                 stipends. We requested the source documentation (listing of authorized
                 personnel, time sheets, vendor invoices, canceled checks/vouchers, etc.) for
                 these charges. However, OAI was only able to provide partial
                 documentation for a small portion (approximately $10,000) of the charges.
                 However, the documentation was not sufficient to determine that the costs
                 were allowable and reasonable. OAI did not provide any documentation


                                                                                      Page 32
                                                       Schedule A-4 (continued)

       for the remaining costs of approximately $37,500. Therefore, we have
       questioned the $47,499 claimed in total because 29 CFR Part 95.21 (b)(2)
       and (7) requires that the accounting records be supported by source
       documentation.

b.     We requested the source documentation (listing of authorized personnel,
       time sheets, vendor invoices, canceled checks/vouchers, etc.) for the
       $11,554 claimed based on an invoice submitted by ASAP. OAI did not
       provide any source documentation to support these amounts. Therefore,
       we have questioned the $11,554 in total because 29 CFR Part 95.21 (b)(2)
       and (7) requires that the accounting records be supported by source
       documentation.

c.     OAI included a $25,000 charge under the grant as fringe benefits.
       However, our review disclosed that the amount represented a cash advance
       to the subcontractor ASAP. ASAP ceased operations prior to returning the
       cash advance. Therefore, we have questioned the $25,000 in total.

Grantee Response

DePaul officials put forth a good faith reasonable effort to obtain supporting
documentation for payments to ASAP ($84,053) which suddenly ceased operations.
DePaul took steps that a reasonably prudent business person would take to ensure
that ASAP was a responsible partner.

Auditor’s Conclusion

The grantee did not provide source documentation to substantiate the $84,053 paid
to ASAP. Therefore, the questioned cost remains unchanged.




                                                                         Page 33
                                                                                                Schedule A-5
                                DEPAUL UNIVERSITY
                      WELFARE-TO-WORK COMPETITIVE GRANT NO.
                                  Y-6814-8-00-81-60

                            Schedule of Detailed Questioned Costs - Other
                                       For the Interim Period
                                 July 1, 1998 through June 30, 2000
                      DePaul Accounting System
                                                           OIG
                                                                           Amount
                   Object      Fiscal     Account      Sample Number                     Note
                                                                          Questioned
                   Code        Year       Number

                    2501       1999       5-20739             4           $      2,918    1

                                                             10                 *3,702    2
                               1999       5-20739
                                                             11                   646     3
                    3180
                                          5-20408            12                   115     4
                               2000
                                          5-20406             8                  2,213    5

                               1999       5-20739            13                  2,281    6
                    3190
                                                             12                  *599     7
                               2000       5-20739
                                                             13                  *535     7

                                          5-20739            41                 *2,444    8
                    3240       2000
                                          5-20408            17                  *746     8

                                                             29                 *3,080    1

                    4530       1999       5-20739            32                 *2,460    1

                                                             33                 *1,620    1

                                          5-20739            24                 *2,100    1
                    4600       2000
                                          5-20408             4                  *900     1

                    9060       2000       5-20406            10                  *662     9

                               1999       5-20739        Judgmental             26,190   10

                    4310       2000       5-20739        Judgmental              2,175   10

                               2000       5-20408        Judgmental              1,575   10

                    3410       2000       5-20408        Judgmental                25    10

                   Total                                                      $*56,986



*   This amount has been reduced to reflect additional data provided by
    DePaul officials subsequent to the release of the draft report.                                  Page 34
                                                                   Schedule A-5 (continued)

Note 1:   We requested the source documentation (vendor invoice, canceled check/voucher,
          etc.) for these charges. However, OAI was unable to provide the necessary
          documentation. Therefore, we have questioned the amounts in total because
          29 CFR Part 95.21(b)(2) and (7) requires that the accounting records be supported
          by source documentation.

          Grantee Response

          DePaul officials provided source documentation to substantiate most of these
          expenditures.

          Auditor’s Conclusion

          The questioned cost is eliminated with the exception of $2,918 for the reallocation
          of a “furniture and fixtures” pool from the OAI discretionary account 6-25315.
          DePaul officials did provide an updated expenditure re-allocation summary of the
          OAI discretionary account to the WtW accounts. However, DePaul officials did
          not provide source documentation to substantiate the original expenditure(s)
          charged and pooled in the OAI discretionary account. We cannot verify that the
          $2,918 reallocation of furniture and fixtures is supported by source documentation
          or that this amount was removed from the WtW account expenditures through the
          updated re-allocation summary.

          Consequently, questioned costs are reduced to $2,918.

Note 2:   Several communication expenses were pooled into OAI’s discretionary account
          6-25315 and were then allocated to OAI’s multiple funding sources. We reconciled
          the total pooled expense to the allocated amounts. Due to the number of individual
          items included the pool, it was agreed that we would request documentation for the
          largest and smallest expense items within the pool. If either item was found to be
          unsupported or unallowable, the entire amount would be questioned. OAI was
          unable to provide the source documentation for the largest expense charged to the
          pool. Therefore, the amount is questioned in total because 29 CFR Part
          95.21(b)(2) and (7) requires that the accounting records be supported by source
          documentation.

          Grantee Response

          DePaul officials provided source documentation to substantiate the largest expense
          charged to the discretionary account.




                                                                                      Page 35
                                                                  Schedule A-5 (continued)

          Auditor’s Conclusion

          The questioned cost is eliminated.

Note 3:   Several communications expenses were pooled into OAI’s discretionary account
          and were then allocated to OAI’s multiple funding sources. We reconciled the total
          pooled expense to the allocated amounts which came to $9,312. However, we
          determined that $3,951 of communication charges incurred prior to
          July 1, 1998, the start of the grant period, were included in the pool and allocated
          to the WtW accounts. Our sampled expense was 16.36% of the pooled expenses.
          Therefore, we question $646 (16.36% of $3,951) since this portion of the sampled
          expense was a pre-award expense. Pre-award expenditures are unallowable in
          accordance with 29 CFR Part 95.28.

          Grantee Response

          DePaul officials provided an updated re-allocation expenditure summary of the OAI
          discretionary account to the WtW accounts. As a result of the updated re-
          allocation, OAI discovered other discretionary expenditures that were omitted from
          the original re-allocation which offset the pre-award expenditures that were
          improperly charged to the WtW accounts.

          Auditor’s Conclusion

          Although DePaul officials did provide an updated expenditure re-allocation
          summary from the OAI discretionary account to the WtW accounts, we cannot
          verify that the amount in question was removed from the WtW account
          expenditures without performing a complete reconstruction of all costs charged and
          pooled in the OAI discretionary account and then re-allocated to all OAI funding
          sources. Consequently, the question cost remains unchanged.

Note 4:   A portion of a $500 original charge to the 70% participant account was reallocated
          through a journal entry resulting in the sample item. However, OAI was unable to
          provide the necessary documentation. Therefore, we have questioned the amount
          in total because 29 CFR Part 95.21 (b)(2) and (7) requires that the accounting
          records be supported by source documentation.

          Grantee Response

          DePaul officials provided source documentation to substantiate this expenditure.




                                                                                     Page 36
                                                                  Schedule A-5 (continued)

          Auditor’s Conclusion

          DePaul officials provided a credit card payment processing request, dated
          April 19, 2000, and an April 22, 2000 invoice to substantiate this telephone
          expense. However, the invoice indicated that the credit card payment was not
          applied to the outstanding balance. Therefore, we have no assurance that the
          payment was processed. Consequently, the question cost remains unchanged.

Note 5:   This item was the result of a reimbursement to DePaul’s telecommunications
          department. However, OAI was unable to provide the necessary documentation.
          Therefore, we have questioned the amount in total because 29 CFR Part 95.21
          (b)(2) and (7) requires that the accounting records be supported by source
          documentation.

          Grantee Response

          DePaul officials provided an internal memorandum authorizing an interdepartmental
          transfer of funds for a digital line card.

          Auditor’s Conclusion

          DePaul officials did not provide a vendor invoice which would substantiate the
          amount of this interdepartmental transfer. Consequently, the questioned cost
          remains unchanged.

Note 6:   Several photocopy expenses were pooled into OAI’s discretionary account and
          were then allocated to OAI’s multiple funding sources. We reconciled the total
          pooled expense to the allocated amounts which came to $11,175. However, we
          determined that $6,671 of photocopy charges incurred prior to July 1, 1998, the
          start of the grant period, were included in the pool and allocated to the WtW
          accounts. Our sampled expense was 34.2% of the pooled expenses. Therefore, we
          question $2,281 (34.2% of $6,671) since this portion of the sampled expense was a
          pre-award expense. Pre-award expenditures are unallowable in accordance with 29
          CFR Part 95.28.

          Grantee Response

          DePaul officials provided an updated re-allocation expenditure summary of the OAI
          discretionary account to the WtW accounts. As a result of the updated re-
          allocation, OAI discovered other discretionary expenditures that were omitted




                                                                                     Page 37
                                                                   Schedule A-5 (continued)

          from the original re-allocation which offset the pre-award expenditures that were
          improperly charged to the WtW accounts.

          Auditor’s Conclusion

          Although DePaul officials did provide an updated expenditure re-allocation
          summary from the OAI discretionary account to the WtW accounts, we cannot
          verify that the amount in question was removed from the WtW account
          expenditures without performing a complete reconstruction of all costs charged and
          pooled in the OAI discretionary account and then re-allocated to all OAI funding
          sources. Consequently, the question cost remains unchanged.

Note 7:   These expenses were the result of copier costs in support of Partners in Hope. OAI
          was unable to provide any documentation as to how the amounts were calculated,
          the basis for the calculations, work order, or justification to support the expenses.
          Therefore, we have questioned the expenses in total because 29 CFR Part
          95.21(b)(2) and (7) requires that the accounting records be supported by source
          documentation.

          Grantee Response

          DePaul officials provided source documentation to substantiate these expenditures.

          Auditor’s Conclusion

          The questioned cost is eliminated.

Note 8:   The original charges were accumulated in the OAI discretionary account and a
          portion was allocated to the WtW accounts through journal entries. Due to the
          number of individual items included the pool, it was agreed that we would request
          documentation for the largest and smallest expense items within the pool. If either
          item was found to be unsupported or unallowable, the entire amount would be
          questioned. OAI was unable to provide the source documentation for the smallest
          expense charged to the pool. Therefore, these allocated costs are questioned in
          total because 29 CFR Part 95.21(b)(2) and (7) requires that the accounting records
          be supported by source documentation.

          Grantee Response

          DePaul officials provided source documentation to substantiate the smallest
          expense charged to the discretionary account.



                                                                                        Page 38
                                                                   Schedule A-5 (continued)

           Auditor’s Conclusion

           The questioned cost is eliminated.

Note 9:    This expense was the result of a reimbursement to DePaul’s Network and
           Telecommunications department. We requested the source documentation (vendor
           invoice, canceled check/voucher, etc.) for these charges. However, OAI was
           unable to provide the necessary documentation. Therefore, we have questioned the
           amount in total because 29 CFR Part 95.21(b)(2) and (7) requires that the
           accounting records be supported by source documentation.

           Grantee Response

           DePaul officials provided source documentation to substantiate the expenditure.

           Auditor’s Conclusion

           The questioned cost is eliminated.

Note 10:   From September 1, 1998, through August 19, 1999, OAI provided cash stipends to
           WtW clients for meeting certain employment benchmarks. Cash stipends are not
           included as an allowable activity in 20 CFR Part 645.220 and are considered
           unallowable by ETA as documented by AA12 of the Questions and Answers
           regarding Allowable Activities posted on their WtW website. Therefore, we
           question the costs of these stipends.

           Grantee Response

           Cash stipends paid to clients ($29,965) should be allowed because the stipends
           were included in their grant proposal which was reviewed, negotiated, and
           approved by ETA.

           Auditor’s Conclusion

           Cash stipends can only be allowed by the Grant Officer. Questioned costs remain
           unchanged.




                                                                                      Page 39
                                                                                     Exhibit B

                           DEPAUL UNIVERSITY
                 WELFARE-TO-WORK COMPETITIVE GRANT NO.
                             Y-6814-8-00-81-60

                     Schedules of Cost Per Client Served By Location

              OVERALL COST PER CLIENT SERVED CALCULATION
                     Description                    Amount            Reference
      Total QFSR Claimed Expenditures             $ 2,313,766        Appendix A
                                                                 Exhibit A, Sub Total
      LESS: Non-Personnel Questioned Costs            144,551     (after adjustment)
      Allowable Costs Per Audit                   $ 2,169,215


      Total Claimed WtW Clients Served                    802        Appendix A
      LESS: Clients Ineligible for WtW Program               9         Exhibit C
      Eligible WtW Clients Per Audit                      793
                 Allowable Costs per Audit ÷ Eligible Clients Per Audit =
                              Cost Per WtW Served Client

                               $2,169,215 ÷ 793 = $2,735


        DEPAUL UNIVERSITY OFFICE OF APPLIED INNOVATION’S (OAI)
                COST PER CLIENT SERVED CALCULATION
                    Description                            Amount              Reference
Allowable Costs Per Audit                             $          2,169,215    Table above
LESS: Chicago Lighthouse for the Blind billing                     40,347          page 18
Allowable Costs at OAI                                $          2,128,868
Divided By: Total OAI Clients Served                                   667         page 5
Audited Cost Per DePaul OAI WtW Client Served         $             3,192



                                                                                       Page 40
                                                                                         Exhibit C
                               DEPAUL UNIVERSITY
                     WELFARE-TO-WORK COMPETITIVE GRANT NO.
                                 Y-6814-8-00-81-60

                                  Schedule of Ineligible Clients

 Sample                                                                Reason for Ineligibility
   No.        Category    Location              Criteria                  Determination
      3          a       DePaul          20 CFR Part 645.212         non-receipt of TANF
                                                                     no characteristics of long-
    274          c       DePaul          20 CFR Part 645.213         term welfare dependence
                                                                     no characteristics of long-
    479          c       DePaul          20 CFR Part 645.213         term welfare dependence
    676          c       YMCA            20 CFR Part 645.213         non-receipt of TANF
                                                                     criteria not met for custodial
    681          d       YMCA              1999 Amendments           parent with income below
                                                                     the poverty line
                                                                     criteria not met for custodial
    690          d       YMCA              1999 Amendments           parent with income below
                                                                     the poverty line
                                                                     custodial parent status
    706          d       YMCA              1999 Amendments           cannot be determined
    718          b       YMCA              1999 Amendments           non-receipt of TANF
    775          a       YMCA            20 CFR Part 645.212         non-receipt of TANF

Category Legend
      a   –     Hard-to-employ with eligibility determination date before January 1, 2000
      b   –     Hard-to-employ with eligibility determination date after January 1, 2000
      c   –     Other eligible with eligibility determination date before January 1, 2000
      d   –     Other eligible with eligibility determination date after January 1, 2000




                                                                                            Page 41
                                                                                   Exhibit D

                          DEPAUL UNIVERSITY
                WELFARE-TO-WORK COMPETITIVE GRANT NO.
                            Y-6814-8-00-81-60

                           Schedule of Misclassified Clients
                      (other eligibles reported as hard-to-employ)
                CRITERIA: 20 CFR Part 645.212, dated November 18, 1997
Sample                                                 Reason for
  No.    Category     Location                       Mis-classification
                                 less than 30 months cash assistance / no TABE test /
     5      a         DePaul     poor work history cannot be determined
    16      a         DePaul     no TABE test / substance abuse treatment not necessary
                                 graduated from Collins High School /
    57      a         DePaul     substance abuse treatment not necessary
                                 graduated from Jones High School /
    59      a         DePaul     substance abuse treatment not necessary
    63      a         DePaul     no TABE test / substance abuse treatment not necessary
                                 no TABE test & graduated from Hyde Park Career
    64      a         DePaul     Academy / substance abuse treatment not necessary
                                 graduated from Philips High School /
    69      a         DePaul     substance abuse treatment not necessary
                                 graduated from Crane High School /
    71      a         DePaul     substance abuse treatment not necessary
                                 graduated or obtained GED from Hirsch High School /
    75      a         DePaul     substance abuse treatment not necessary /
                                 poor work history cannot be determined
    84      a         DePaul     no TABE test / substance abuse treatment not necessary
                                 graduated from Tilden High School /
    85      a         DePaul     substance abuse treatment not necessary
    87      a         DePaul     obtained GED / substance abuse treatment not necessary
    91      a         DePaul     obtained GED from Truman College & no TABE test /
                                 substance abuse treatment not necessary
    92      a         DePaul     no TABE test / substance abuse treatment not necessary

                                                                                        Page 42
                                                                       Exhibit D (continued)

                          DEPAUL UNIVERSITY
                WELFARE-TO-WORK COMPETITIVE GRANT NO.
                            Y-6814-8-00-81-60

                           Schedule of Misclassified Clients
                      (other eligibles reported as hard-to-employ)
                CRITERIA: 20 CFR Part 645.212, dated November 18, 1997
Sample                                                 Reason for
  No.    Category     Location                       Mis-classification
                                 graduated from Crane High School /
   101      a         DePaul     substance abuse treatment not necessary
                                 graduated from high school (not specified) /
   104      a         DePaul     substance abuse treatment not necessary
                                 graduated from Corliss High School /
   115      a         DePaul     substance abuse treatment not necessary
   117      a         DePaul     obtained GED / substance abuse treatment not necessary
                                 graduated from Calumet High School /
   121      a         DePaul     substance abuse treatment not necessary
                                 substance abuse treatment not necessary /
   123      a         DePaul     poor work history cannot be determined
                                 obtained GED & no TABE test /
   137      a         DePaul     substance abuse treatment not necessary
                                 graduated from Collins High School /
   138      a         DePaul     substance abuse treatment not necessary
                                 graduated from Austin High School /
   151      a         DePaul     substance abuse treatment not necessary
                                 substance abuse treatment not necessary /
   162      a         DePaul     poor work history cannot be determined
                                 graduated from Collins High School /
   164      a         DePaul     substance abuse treatment not necessary
   167      a         DePaul     less than 30 months cash assistance
                                 graduated from Englewood High School /
   187      a         DePaul     substance abuse treatment not necessary


                                                                                    Page 43
                                                                     Exhibit D (continued)

                          DEPAUL UNIVERSITY
                WELFARE-TO-WORK COMPETITIVE GRANT NO.
                            Y-6814-8-00-81-60

                        Schedule of Misclassified Clients
                   (other eligibles reported as hard-to-employ)
             CRITERIA: 20 CFR Part 645.212, dated November 18, 1997
Sample                                               Reason for
  No.    Category   Location                       Mis-classification
   200      a       DePaul     No TABE test / substance abuse treatment not necessary
                               less than 30 months cash assistance / client application did
   213      a       DePaul     not request high school or GED information /
                               need for substance abuse treatment not documented
                               graduated from high school (not specified) /
   222      a       DePaul     substance abuse treatment not necessary
                               no TABE test and graduated from high school (not
   231      a       DePaul     specified) / substance abuse treatment not necessary
   232      a       DePaul     less than 30 months cash assistance
                               substance abuse treatment not necessary /
   233      a       DePaul     poor work history cannot be determined
   253      a       DePaul     less than 30 months cash assistance
   262      a       DePaul     no TABE test / substance abuse treatment not necessary
                               graduated from Orr High School /
   269      a       DePaul     substance abuse treatment not necessary
   293      a       DePaul     less than 30 months cash assistance
   318      a       DePaul     less than 30 months cash assistance
                               graduated from Crane High School /
   334      a       DePaul     substance abuse treatment not necessary
                               substance abuse treatment not necessary /
   344      a       DePaul     poor work history could not be determined
                               graduated from high school (not specified) /
   348      a       DePaul     substance abuse treatment not necessary



                                                                                    Page 44
                                                                                Exhibit D (continued)
                           DEPAUL UNIVERSITY
                 WELFARE-TO-WORK COMPETITIVE GRANT NO.
                             Y-6814-8-00-81-60

                           Schedule of Misclassified Clients
                     (other eligibles reported as hard-to-employ)
     CRITERIA: 20 CFR Part 645.212 (dated November 18, 1997) and 1999 Amendments
  Sample                                                       Reason for
    No.      Category    Location                            Mis-classification
                                          graduated from high school or obtained GED (not
       351       a       DePaul           specified) / need for substance abuse treatment not
                                          documented
                                          obtained GED from Hilliard Adult Education Center /
       369       a       DePaul           substance abuse treatment not necessary
                                          graduated from Bowen High School /
       382       a       DePaul           substance abuse treatment not necessary
       437       a       DePaul           less than 30 months cash assistance
       486       a       DePaul           less than 30 months cash assistance
       639       b       DePaul           less than 30 months cash assistance
       733       a       YMCA             less than 30 months cash assistance
                                          non-receipt of TANF, qualifies as custodial parent with
       758       b       YMCA             income below the poverty line
       759       b       YMCA             less than 30 months cash assistance
       769       b       YMCA             less than 30 months cash assistance
                                          non-receipt of TANF, qualifies as custodial parent with
       784       b       YMCA             income below the poverty line

                         Chicago
                                          less than 30 months cash assistance /
       795       a       Lighthouse for   graduated from Bowen High School /
                         the Blind
                                          need for substance abuse treatment not documented
                         Chicago
                                  graduated from Maine West High School /
                         Lighthouse for
       798      a        the Blindneed for substance abuse treatment not documented
Category Legend
      a – Hard-to-employ with eligibility determination date before January 1, 2000
      b – Hard-to-employ with eligibility determination date after January 1, 2000


                                                                                                Page 45
                                                       APPENDIX A




        DEPAUL UNIVERSITY
Interim Cumulative Quarterly Financial Status Report
           Reporting Period 06/30/2000




                                                           Page 46
                                     U. S. DEPARTMENT OF LABOR - Employment and Training Administrative
                                                         WTW COMPETITIVE GRANT
                                             Cumulative Quarterly Financial Status Report - ETA 9068-1

GRANT NO           Y68148008160                          REPORTING PERIOD O6/30/2000                                 Date Submitted 08/16/2000

Reporting Grantee Information                                 Grantee Contact Information
Grantee Name: DEPAUL UNIVERSITY
Address:                                                                        Address:        DePauI University
     City:             State: IL            Zip                                 City:            State:                Zip:
                                                                                Phone:          312-362-6024


                                                                   FY 1998
Section I. GRANT TOTAL
1. Federal Grant                                         5000000             Section IV. FEDERAL PARTICIPANT SUMMARY
2. Federal Expenditures                                  2313766             19. Total Participants Served
3. Federal Administrative Expenditures (15% Max)          138813                  (1) Required Beneficiaries (70% of $ Minimum)              551
4. Federal Technology/Computerization Expenditures         77172                  (2) Other Eligibles (30% of $ Maximum)                     251
5. Expenditures for:                                                         20. Total Participants Terminated
     a. REQUIRED BENEFICIARIES (70% Minimum)             1573361                  (1) Required Beneficiaries (70% of $ Minimum)
     b. OTHER ELIGIBLES (30% Maximum)                     740405                  (2) Other Eligibles (30% of $ Maximum)
6. Unliquidated Obligations                              1011049             21. Place in Unsubsidized Employment
Section II EXPENDITURES BY ACTIVITY                                               a. Great than or Equal to 30 Hours Per Week                539
7. Community Service                                                              b. Less than 30 Hours Per Week
8. Work Experience                                                           22. Employed In Unsubsidized Employment When Entering WtW
9. Job Creation Employment Wage Subsidies                                         a. Great than or Equal to 30 Hours Per Week
 a. Public                                                                        b .Less than 30 Hours Per Week
 b. Private                                                                  23. Placed In Subsidized Employment
10. On-the-Job Training                                                           a. Great than or Equal to 30 Hours Per Week
11. Job Readiness Services                                                        b. Less than 30 Hours Per Week
 a. Vouchers                                                                 24. Retained 6 mos (2 qtrs) in Unsubsidized Employment         240
 b. Contracts                                                                25. Earnings gained in 6 mos (2 qtrs) following Placement in
12. Job Placement Services                                                   Unsubsidized Employment
 a. Vouchers                                                                      a. Sum of Earnings of those Retained in 2nd Subsequent Qtr. 8
 b. Contracts                                                                    (2nd Qtr. following Base Qtr.)
13. Post Employment Services                                                      b. Sum of Earnings of Same Group in Base Qtr                    8
 a. Vouchers                                                                 Section V. REMARKS
 b. Contracts
14. Job Retention Services and Support Services          1573335
15. Intake, Assessment, Eligibility Det. & Case Mgmt      524445
16. Total                                                2097780
Section III. FEDERAL PROGRAM INCOME
17. Earned
18. Expended




                                                                                                                                        Page 47
                                                                                        APPENDIX B


                                           Principal Criteria

The following criteria were referred to in this audit report:

20 CFR Part 645

The U.S. Department of Labor (DOL), Employment and Training Administration (ETA) issued Title
20 CFR Part 645, Welfare-to-Work Grants; Interim Rule, on November 18, 1997. These regulations
provide the administrative framework for the WtW program.

20 CFR Part 645.211 (a) states in part:

   At least 70 percent of the WtW funds allotted to or awarded to an operating entity...must be spent
   to benefit hard-to-employ individuals, as described in § 645.212 of this part.

20 CFR Part 645.211 (b) states in part:

   Not more than 30 percent of the WtW funds allotted to or awarded to an operating entity...may be
   spent to assist individuals with long-term welfare dependence characteristics, as described in§
   645.213 of this part....

20 CFR Part 645.212 (a) states in part:

   An individual is eligible to be served under the 70 percent provision if (s)he meets all three of the
   criteria listed in paragraphs (a) (1), (2), and (3) of this section:

   (1)         The individual is receiving TANF assistance; and

   (2)         Barriers to employment – at least two of the three following barriers to employment
               must apply to the individual:

               (i)     Has not completed secondary school or obtained a certificate of general
                       equivalency, and has low skills in reading or mathematics. At least 90 percent
                       of individuals determined to have low skills in reading or mathematics must be
                       proficient at the 8.9 grade level or below.

               (ii)    Requires substance abuse treatment for employment.

               (iii)   Has a poor work history. At least 90 percent of individuals determined to have
                       a poor work history must have worked no more than 3 consecutive months in
                       the past 12 calendar months; and

   (3)         Length of receipt of TANF assistance – the individual must be a long-term recipient,
               meeting one of the following two criteria:

               (i)     Has received assistance under the State TANF program, and/or its predecessor
                       program, for at least 30 months. The months do not have to be consecutive; or


                                                                                                Page 48
              (ii)    Will become ineligible for assistance within 12 months due to either Federal or
                      State-imposed durational time limits on receipt of TANF assistance....

20 CFR Part 645.213 (a) states:

   An individual is eligible to be served under the 30 percent provision if (s)he meets both criteria
   listed in paragraphs (a) (1) and (2) of this section:

   (1)        The individual is receiving TANF assistance; and

   (2)        The individual has characteristics associated with, or predictive of, long-term welfare
              dependence, such as having dropped out of school, teenage pregnancy, or having a
              poor work history. States, in consultation with the operating entity, may designate
              additional characteristics associated with, or predictive of, long-term welfare
              dependence.

20 CFR Part 645.220 states in part:

   Entities operating WtW projects may use WtW funds for the following:

   (a)        Job readiness activities....

   (b)        Employment activities which consist of any of the following: (1) Community service
              programs; (2) Work experience programs; (3) Job creation through public or private
              sector employment wage subsidies; and (4) On-the-job training.

   (c)        job placement services....

   (d)        Post employment services...Post employment services include... (1) Basic educational
              skills training; (2) Occupational skills training; (3) English as a second language
              training; and (4) Mentoring.

   (e)        Job retention services and support services which are provided after an individual is
              placed in a job readiness activity,...in one of the employment activities,...or in any
              other subsidized or unsubsidized job....Job retention and support services
              include...such services as (1) Transportation assistance; (2) Substance abuse
              treatment (except WtW funds may not be used to provide medical treatment);
              (3) Child care assistance; (4) Emergency or short term housing assistance; and
              (5) Other supportive services.

   (f)        Individual development accounts....

   (g)        Intake, assessment, eligibility determination, development of an individualized service
              strategy, and case management may be incorporated in the design of any of the
              allowable activities listed in paragraphs (a) through (f) of this section....

   ETA issued Questions and Answers for Allowable Activities at
   wtw.doleta.gov/q&a/allowable.html. Question and Answer AA12 states in part:




                                                                                               Page 49
                “Since WtW participants do not receive direct cash assistance from the WtW
               program, they can not be provided with direct cash incentives under the WtW
               grant....”

                                                  ---

Welfare-to-Work and Child Support Amendments of 1999

As part of the Consolidated Appropriations Act for Federal Fiscal Year 2000, the “Welfare-to-Work
and Child Support Amendments of 1999” (1999 Amendments) were enacted. These amendments
made several significant changes to the WtW grant programs administered by DOL. As of June 30,
2000, DOL - ETA had not codified these changes within 20 CFR Part 645. However, ETA had
prepared a summary of the 1999 Amendments on their WtW web site; “wtw.doleta.gov/laws-
regs/99amendsum.htm”. We are citing this summary for eligibility changes which became effective
January 1, 2000:

“The 70% Eligibility Criteria” states in part:

   The 1999 amendments remove the requirement that long-term TANF recipients must meet
   additional barriers to employment in order to be eligible for WtW. Therefore, TANF recipients
   are eligible for WtW if they have received assistance for at least 30 months (whether consecutive
   or not), if they are within 12 months of reaching their TANF time limit, or if they have exhausted
   their receipt of TANF due to time limits.

   In addition..., noncustodial parents are eligible if:

               (1)     they are unemployed, underemployed, or having difficulty paying child support
                       obligations;

               (2)     their minor children are eligible for, or receiving TANF benefits (with a
                       priority for parents with children who are long-term recipients), received
                       TANF benefits during the preceding year, or are eligible for, or receiving
                       assistance under the Food Stamps program, the Supplemental Security Income
                       program, Medicaid, or the Children’s Health Insurance Program: AND

               (3)     they enter into a personal responsibility contract under which they commit to
                       cooperate in establishing paternity and paying child support, and participating
                       in services to increase their employment and earnings, and to support their
                       children. The 1999 amendments also require grantees to consult with domestic
                       violence organizations in developing these projects to serve noncustodial
                       parents.”

“The 30% Eligibility Requirement” states:

   In general, the 30% eligibility criteria are retained, except for noncustodials. In addition, the
   1999 amendments add several categories of eligibility under the 30% provision, including

               1)      TANF recipients who have significant barriers to self-sufficiency under criteria
                       established by the PIC,

               2)      youth aged 18 to 25 who have “aged out” of foster care, and

                                                                                               Page 50
               3)     custodial parents with incomes below the poverty line.

   Noncustodial parents are no longer included under the 30 percent provision, but may be served
   under the general eligibility provisions [70% criteria] described above.”

                                                 ---

29 CFR Part 95

The uniform administrative requirements for Federal grants and agreements awarded to institutions of
higher education, hospitals, and other non-profit organizations are set forth in OMB Circular A-110
which was codified by DOL at 29 CFR Part 95.

29 CFR Part 95.21 (b) states in part:

   Recipients’ financial management systems shall provide for the following:

   (1)         Accurate, current, and complete disclosure of the financial results of each federally-
               sponsored project or program in accordance with the reporting requirements....

   (2)         Records that identify adequately the source and application of funds for federally-
               sponsored activities. These records shall contain information pertaining to Federal
               awards, authorizations, obligations, unobligated balances, assets, outlays, income,
               and interest....

   (7)         Accounting records including cost accounting records that are supported by source
               documentation.

29 CFR Part 95.28 states:

   Where a funding period is specified, a recipient may charge to the grant only allowable costs
   resulting from obligations incurred during the funding period and any pre-award costs
   authorized by DOL.

29 CFR Part 95.40 states in part:

   Sections 95.41 through 95.48 set forth standards for use by recipients in establishing procedures
   for the procurement of supplies and other expendable property, equipment, real property and
   other services with Federal funds. These standards are furnished to ensure that such materials
   and services are obtained in an effective manner and in compliance with the provisions of
   applicable Federal statutes and executive orders....

29 CFR Part 95.42 states:

    The recipient shall maintain written standards of conduct governing the performance of its
   employees engaged in the award and administration of contracts. No employee, officer, or agent
   shall participate in the selection, award, or administration of a contract supported by Federal
   funds if a real or apparent conflict of interest would be involved. Such a conflict would arise
   when the employee, officer, or agent, any member of his or her immediately family, his or her
   partner, or an organization which employs or is about to employ any of the parties indicated

                                                                                              Page 51
   herein, has a financial or other interest in the firm selected for an award. The officers,
   employees, and agents of the recipient shall neither solicit nor accept gratuities, favors, or
   anything of monetary value from contractors, or parties to subagreements. However, recipients
   may set standards for situations in which the financial interest is not substantial or the gift is an
   unsolicited item of nominal value. The standards of conduct shall provide for disciplinary
   actions to be applied for violations of such standards by officers, employees, or agents of the
   recipient.

29 CFR Part 95.43 states in part:

   All procurement transactions shall be conducted in a manner to provide, to the maximum extent
   practical, open and free competition. The recipient shall be alert to organizational conflicts of
   interest as well as noncompetitive practices among contractors that may restrict or eliminate
   competition or otherwise restrain trade....


29 CFR Part 95.44 (a) states in part:

   All recipients shall establish written procurement procedures. These procedures shall provide
   for, at a minimum, that paragraphs (a)(1), (a)(2), and (a)(3) of this section apply.

   (1)         Recipients shall avoid purchasing unnecessary items.

   (2)         Where appropriate, an analysis shall be made of lease and purchase alternatives to
               determine which would be the most economical and practical procurement for the
               Federal Government.

   (3)         Solicitations for goods and services shall provide for all of the following: (i) A clear
               and accurate description of the technical requirements for the material, product or
               service to be procured... (ii) Requirements which the bidder/offeror must fulfill and all
               other factors to be used in evaluating bids or proposals.
               (iii) A description, whenever practicable, of technical requirements in terms of
               functions to be performed or performance required, including the range of acceptable
               characteristics or minimum acceptable standards....

29 CFR Part 95.44 (b) states in part:

   Positive efforts shall be made by recipients to utilize small businesses, minority-owned firms, and
   women’s business enterprises, whenever possible....

29 CFR Part 95.44 (c) states in part:

   The type of procuring instruments used (e.g., fixed price contracts, cost reimbursable contracts,
   purchase orders, and incentive contracts) shall be determined by the recipient but shall be
   appropriate for the particular procurement....The “cost-plus-a-percentage-of-cost” or
   “percentage of construction cost” methods of contracting shall not be used.”

29 CFR Part 95.44 (d) states in part:

   Contracts shall be made only with responsible contractors who possess the potential ability to
   perform successfully under the terms and conditions of the proposed procurement. Consideration

                                                                                                 Page 52
   shall be given to such matters as contractor integrity, record of past performance, financial and
   technical resources or accessibility to other necessary resources....


29 CFR Part 95.45 states:

   Some form of cost or price analysis shall be made and documented in the procurement files in
   connection with every procurement action. Price analysis may be accomplished in various ways,
   including the comparison of price quotations submitted, market prices and similar indicia,
   together with discounts. Cost analysis is the review and evaluation of each element of cost to
   determine reasonableness, allocability and allowability.

29 CFR Part 95.46 states:

   Procurement records and files for purchases in excess of the small purchase threshold shall
   include the following at a minimum: (a) basis for contractor selection,
   (b) justification for lack of competition when competitive bids or offers are not obtained, and (c)
   basis for award cost or price.

29 CFR Part 95.51 (a) states in part:

   Recipients are responsible for managing and monitoring each project, program, subaward,
   function or activity supported by the award....

                                                   ---

OMB Circular A-21

This Circular establishes principles for determining costs applicable to grants, contracts, and other
agreements with educational institutions.

Section C. Basic Considerations. 3. Reasonable Costs states in part:

   A cost may be considered reasonable if the nature of the goods or services acquired or applied,
   and the amount involved therefor, reflect the action that a prudent person would have taken
   under the circumstances prevailing at the time the decision to incur the cost was made. Major
   considerations involved in the determination of the reasonableness of a cost are: (a) whether or
   not the cost is of a type generally recognized as necessary for the operation of the institution or
   the performance of the sponsored agreement;...




                                                                                                 Page 53
                            APPENDIX C




DEPAUL UNIVERSITY
 Response to Draft Report




                                Page 54
June 8, 2001

U. S. Department of Labor
Office of Inspector General
230 South Dearborn Street
Chicago, Illinois 60604

Attn: Mr. Preston Firmin, Regional Inspector General for Audit

Dear Sir:

Enclosed find a response to your Audit Report No. 05-01-003-03-386, of DePaul University’s Office of
Applied Innovation’s Welfare-to-Work Grant Program, Agreement No. Y-6814-8-00-81-60, covering the
period from July 1, 1998 to June 30, 2000.

If you have questions, please contact Bonnie Hirsch, Controller at (312) 362-6760 or Mike Marback,
Director of Internal Audit at (312) 362-8392.

Sincerely,




Bonnie Hirsch
Controller - DePaul University




Michael Marback
Director of Internal Audit - DePaul University

Cc. Susan Wallace, Vice President for Finance – DePaul University




                                                                                               Page 55
                                       SUMMARY
                                    DePaul University
                       Response to Findings and Recommendations
                                   OIG Office of Audit
                         Interim Financial and Compliance Audit
                Welfare-to-Work Grant – Agreement No. Y-6814-8-00-81-60
                             Period from 07/01/98 to 06/30/00


Finding 1: Noncompliance with Federal Cost Principles, WtW Regulations, and Uniform
Administrative Requirements

a.   Unallowable costs

a.1. WtW client cash stipends – questioned costs of $29,965

Response: Cash stipends were included as part of our original program design. The proposal was
reviewed, negotiated and approved with cash stipends included. Our GOTR was aware of the
situation and informed us that costs incurred would not be disallowed. We discontinued their use
immediately when instructed. Therefore, this amount should be allowed.

a.2. Expenditures in support of three ineligible clients questioned costs of $9,489, ($3,163 per client)

Response: We can provide documentation in the clients’ files to support the fact that sample numbers
274 and 479 are eligible under the 30% category. We agree that sample #3 was counted as an
enrollment and was ineligible. We will de-enroll the client and the final quarterly report will be
adjusted. However, because the overall enrollment exceeded the planned numbers, there should be no
questioned costs.

a.3. Cash advance to ASAP, which subsequently ceased operation and unsupported or unreasonable
expenditures. Questioned costs of $25,000 advance and $59,053 in questioned costs.

Response: We believe that these amounts should be allowed. The University took steps that a
reasonably prudent business person would take to ensure that ASAP was a responsible partner. We
identified ASAP in our proposal as a potential collaborative partner. We requested and received
positive references from funding agencies that contracted with or were knowledgeable about ASAP.
We toured their facilities and observed program activities. The DOL ETA team also conducted site
visits. We requested documentation from ASAP, but the organization suddenly closed its doors before
we were able to obtain the additional backup. Even after ASAP shut down, OAI made numerous
attempts to contact ASAP's president to obtain documentation but failed. We put forth a good faith
reasonable effort to obtain the receipts, therefore the amount should be allowed.

a.4. Unsupported/Unreasonable Expenses

Response: We believe we have adequate support for the majority of the transactions. Therefore, the
costs should be allowed.



b.   Procurement Policies

                                                                                               Page 56
                                       SUMMARY
                                    DePaul University
                       Response to Findings and Recommendations
                                   OIG Office of Audit
                         Interim Financial and Compliance Audit
                Welfare-to-Work Grant – Agreement No. Y-6814-8-00-81-60
                             Period from 07/01/98 to 06/30/00


Response: In general, DePaul believes its procedures meet the federal requirements for procurement.
However, the procurement policies are under review and will be clarified, where appropriate, to more
closely mirror the federal regulation's wording. Written policies and procedures are available on the
Financial Affairs and Office of Sponsored Programs web sites and in the Handbook of Grant
Management. In addition, policies and procedures are communicated through monthly training
sessions, which all University Budget Managers, including Principal Investigators, attend. Compliance
is primarily the responsibility of the individual Budget Managers and Principal Investigators. The
policies are also enforced through review by various departments in the University, including the
Payment and Procurement Department, the Internal Audit Department and, in many cases, the Office
of Sponsored Programs and Research.


Finding 2: Noncompliance with Federal WtW Eligibility Target Group Reporting
Requirement

a. Mis-classification of hard-to-employ and other eligible clients

General response: The state plan designated the IDHS as the agency responsible for determining
client eligibility, conducting assessment and making the appropriate client referrals to service
providers. Our approved grant proposal was based on this understanding. However, we found that
IDHS did not provide us with reliable or accurate documentation on client eligibility and 70/30
classifications. We met several times with IDHS to rectify the situation. Our GOTR, the DOL and
the OIG auditor were unable to get accurate information from the IDHS as well. Since IDHS did not
provide us with accurate or reliable information, we were forced to do much more work than
originally envisioned in our proposal and tried to collect the information on our own. We believe that
if we had been provided with the information we would not have any questions on eligibility or
misclassification on any of the clients.

Ineligible Clients Response: OIG listed 12 clients as ineligible. We agree that 5 clients were
ineligible. The clients were counted as enrollment only and will be de-enrolled and deducted from the
total enrollment. We disagree on 7 clients. These are all eligible clients.

Misclassified Clients Response: The OIG considered 54 clients as misclassified. We agree that 14
of these were listed as 70% but should have been 30% and we will change them. We also agree with 8
others that we changed during the audit. We disagree with the OIG findings on 32 clients. There is
adequate documentation to support their status as 70%.



b. Consolidation of costs associated with the hard-to-employ and other eligible clients


                                                                                              Page 57
                                        SUMMARY
                                     DePaul University
                        Response to Findings and Recommendations
                                    OIG Office of Audit
                          Interim Financial and Compliance Audit
                 Welfare-to-Work Grant – Agreement No. Y-6814-8-00-81-60
                              Period from 07/01/98 to 06/30/00

Response: Corrective action to address the consolidation of costs has already been completed. This
current fiscal year, all WtW expenditures have been correctly assigned to the four cost categories
according to the OAI Welfare-to-Work Cost Allocation Plan (CAP), using the most current client
eligibility data.

•   Expenditures for the first fiscal year have been adjusted among the four WtW accounts, addressing
    the consolidation of equipment/ technology and other eligible client costs among the administration
    and WtW 70% Direct Participant accounts.

•   Following recommendations made by OIG auditors during the Fall 2000 interim fiscal audit, the
    CAP has been revised so that time and effort for development of the OAI WtW tracking system is
    now exempted from the calculation of pool cost assignment to the WtW cost categories. An
    adjustment has been entered in the financial system to redistribute pool cost already charged to the
    Equipment/Technology account across the other cost categories.


Finding 3: Noncompliance with Federal Reporting Requirements

a. QFSR not supported by the accounting system and MIS

Response: WtW expenditures were separated into only two cost categories—Administration and
Participant 70%—during the first fiscal year of the project, 7/1/98 – 6/30/99. To address this error,
OAI established a sub-system that separated the first year’s costs across all four categories, including
Participant 30% and Equipment/Technology. All QFSR reports beginning the third fiscal quarter of
the second fiscal year were produced using this system.

Following recommendations made by OIG auditors during this interim fiscal audit, DePaul
University’s OAI adopted the policy of entering regular quarterly adjustments into the financial
system, allowing the QFSR to align with the University’s accounting system.

The QFSR submitted for the last quarterly reporting period of Welfare-to-Work, through March 31,
2001, is directly linked to the financial and programmatic information generated by the financial
reports and MIS tracking systems of the lead agency and subgrantees. A formal system is in place for
the accumulation and assembly of fiscal and programmatic data for the QFSR. Subgrantees submit
cumulative quarterly financial and programmatic reports to the lead
agency within thirty days of the end of the quarter. Figures from these reports are incorporated with
the University’s data.


b. Subgrantee expenditures are not promptly obtained



                                                                                                 Page 58
                                       SUMMARY
                                    DePaul University
                       Response to Findings and Recommendations
                                   OIG Office of Audit
                         Interim Financial and Compliance Audit
                Welfare-to-Work Grant – Agreement No. Y-6814-8-00-81-60
                             Period from 07/01/98 to 06/30/00

Response: DePaul University has de-obligated the WtW competitive grant funds and terminated the
program as of April 15, 2001.


Finding 4: Internal Control Weaknesses in Financial Reporting, Subgrantee Monitoring, and
the MIS

Response: The OIG recommendation has been implemented. DePaul University has de-obligated the
WtW competitive grant funds and terminated the program as of April 15, 2001.

a. Formal subgrantee monitoring system is not established.

Response: The OIG recommendation has been implemented. DePaul University has de-obligated the
WtW competitive grant funds and terminated the program as of April 15, 2001

b. Formal QFSR reporting system is not established.

Response: A procedure was established. Based on the auditor's feedback, the procedure was
strengthened establishing a link between the programmatic and fiscal data.

c. Access control to the WtW MIS needs to be strengthened.

Response: When we were made aware of the access control issue during the audit, the OIG's
recommendation was immediately instituted and maintained until the termination of the program.




                                                                                            Page 59
